Case: 20-55341, 05/07/2020, ID: 11684016, DktEntry: 4, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ELLERY DENNIS THOMAS,
Petitioner-Appellant,
v.
RAYMOND MADDEN, Warden; XAVIER
BECERRA, The Attorney General of the
State of the California, Additional
Respondent,

No.

20-55341

D.C. No. 5:19-cv-00850-JAK-JC
Central District of California,
Riverside
ORDER

Respondents-Appellees.
Before:

M. SMITH and LEE, Circuit Judges.

We have received and reviewed appellant’s response to this court’s April 1,
2020, order to show cause.
The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2);
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

Case: 20-55341, 08/06/2020, ID: 11780245, DktEntry: 6, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 6 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ELLERY DENNIS THOMAS,
Petitioner-Appellant,
v.
RAYMOND MADDEN, Warden; XAVIER
BECERRA, The Attorney General of the
State of the California, Additional
Respondent,

No.

20-55341

D.C. No. 5:19-cv-00850-JAK-JC
Central District of California,
Riverside
ORDER

Respondents-Appellees.
Before:

McKEOWN and BADE, Circuit Judges.

Appellant’s “motion to vacate and remand” (Docket Entry No. 5) is
construed as a motion for reconsideration. So construed, the motion is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

Case 5:19-cv-00850-JAK-JC Document 27 Filed 02/13/20 Page lot 2 PagelD#:483

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

ELLERY DENNIS THOMAS,

Case No. 5:19-cv-00850-JAK-JC

12

Petitioner,

13

v.

14
15

ORDER DENYING A CERTIFICATE
OF APPEALABILITY

MADDEN, Warden, et al.,

16

Respondents.

17

18

An appeal may not be taken from the denial by a United States District

19

Judge of an application for a writ of habeas corpus in which the detention

20

complained of arises from process issued by a state court “unless a circuit justice or

21

a circuit or district judge issues a certificate of appealability under 28 U.S.C.

22

§ 2253(c).” Fed. R. App. P. 22(b).

23

Pursuant to Rule 11 (a) of the Rules Governing Section 2254 Cases in the

24

United States District Courts, the District Court “must issue or deny a certificate of

25

appealability when it enters a final order adverse to applicant.”

26

“A certificate of appealability may issue . . .only if the applicant has made a

27

substantial showing of the denial of a constitutional right.” 28 U.S.C.

28

§ 2253(c)(2).
1

Case 5:19-cv-00850-JAK-JC Document 27 Filed 02/13/20 Page 2 of 2 PagelD#:484

1

Concurrently with the issuance of this Order, the Court has accepted the

2

Magistrate Judge’s finding and conclusion that the Petition under 28 U.S.C.

3

§ 2254 for Writ of Habeas Corpus filed in this action is time-barred under

4

28 U.S.C. § 2244(d), and has directed that a final judgment adverse to the

5

petitioner be entered. Thus, the Court’s determination of whether a certificate of

6

appealability should issue is governed by Slack v. McDaniel. 529 U.S. 473 (2000),

7

in which the Supreme Court held that “[w]hen the district court denies a habeas

8

petition on procedural grounds without reaching the prisoner’s underlying

9

constitutional claim, a [certificate of appealability] should issue when the prisoner

10

shows, at least, that jurists of reason would find it debatable whether the petition

11

states a valid claim of the denial of a constitutional right and that jurists of reason

12

would find it debatable whether the district court was correct in its procedural

13

ruling.” 529 U.S. at 484. As the Supreme Court further explained:

14

Section 2253 mandates that both showings be made before the court

15

of appeals may entertain the appeal. Each component of the

16

§ 2253(c) showing is part of a threshold inquiry, and a court may find

17

that it can dispose of the application in a fair and prompt manner if it

18

proceeds first to resolve the issue whose answer is more apparent from

19

the record and arguments.

20
21

529 U.S. at 485.
Here, the Court finds that petitioner has not shown that “jurists of reason

22

would find it debatable whether the district court was correct in its procedural

23

ruling” with respect to the time bar issue.

24

THEREFORE, pursuant to 28 U.S.C. § 2253, a certificate of appealability is

25

denied.

26

DATED: February 13, 2020

27
28

John A. Kronstadt, U.S. District Judge
2

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 1 of 6 Page ID #:476

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

ELLERY DENNIS THOMAS,
Petitioner,

12
v.

13
14

MADDEN, Warden, et al.,

15

Case No. 5:19-cv-00850-JAK-JC
ORDER ACCEPTING FINDINGS,
CONCLUSIONS, AND
RECOMMENDATIONS OF
UNITED STATES MAGISTRATE
JUDGE

Respondents.

16
17

18
19
20
21
22
23
24
25
26
27
28

I.

SUMMARY
Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition for Writ of

Habeas Corpus (“Petition”) and accompanying documents, the Motion to Dismiss
the Petition and supporting documents, the October 28, 2019 original Report and
Recommendation of United States Magistrate Judge (“Original R&R”), petitioner’s
late-filed Response to the Motion to Dismiss which the Court received after its
issuance of the Original R&R and which contains requests for discovery and
related tolling, a stay, and the appointment of counsel (Docket No. 21), the
December 4, 2019 Superseding Report and Recommendation of United States
Magistrate Judge (“Superseding R&R”), petitioner’s Motion to Reconsider
(Docket No. 22), which the Court received after its issuance of the Superseding
R&R and which appears to seek reconsideration of/to object to the Original R&R,

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 2 of 6 PagelD#:477

1

and all of the records herein. Although petitioner has not filed objections to the

2

Superseding R&R, the Court construes the Motion to Reconsider to constitute

3

objections thereto.

4

The Court has made a de novo determination of those portions of the

5

Superseding Report and Recommendation to which objection is made. The Court

6

concurs with and accepts the findings, conclusions, and recommendations of the

7

United States Magistrate Judge, denies the Motion to Reconsider/overrules

8

petitioner’s objections, and denies the requests contained within petitioner’s

9

Response to the Motion to Dismiss. Although the Court has considered and

10

overruled all of petitioner’s objections and requests, the Court further addresses

11

certain of petitioner’s objections and requests below.

12

II.

13
14
15

DISCUSSION
A.

Petitioner Has Not Shown He Is Entitled to a Delayed Accrual
Date for the Statute of Limitations or to Equitable Tolling

Petitioner asserts that there are “many particulars [he] did not know at trial,”

16

e.g., defense counsel did not interview petitioner’s family which “may have

17

changed the outcome and verdict of trial,” and defense counsel told petitioner that

18

California was a “one party” state when it is a “two party” state. (Motion to

19

Reconsider at 4-5, 10). To the extent petitioner is arguing for a later accrual date

20

for the statute of limitations under 28 U.S.C. § 2244(d)(1)(D), he has not shown

21

entitlement to a later date. The claims petitioner has raised in the Petition were

22

raised with the state courts on direct appeal and predicated upon events that

23

occurred at trial.

24

Petitioner also asserts that the Petition should not be considered time-barred

25

because of his confinement in prison and the special restrictions that incarceration

26

imposes. (Motion to Reconsider at 3). Petitioner generally cites to lockdowns on a

27

Level III yard, his transfer at some unknown time from one prison to another for

28

two weeks, and his lack of an attorney or legal assistance as reasons for his failure
2

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 3 of 6 PagelD#:478

1

to timely file the Petition. (Motion to Reconsider at 3, 10-11). These alleged

2 impediments do not entitle petitioner to tolling of the statute of limitations.
The asserted prison lock-downs and prison transfer do not warrant equitable
3
4 tolling because they do not constitute “extraordinary circumstances” that stood in
5 petitioner’s way. Holland v. Florida. 560 U.S. 631, 649 (2010). Despite the
6 alleged lockdowns and prison transfer, petitioner was able to file pro se one state
7 habeas petition with the San Bernardino County Superior Court within the statute
8 of limitations period. (Lodged Doc. 4). There is no suggestion that any lockdowns
9 or the prison transfer prevented petitioner from filing timely the instant Petition 10 which simply repeats the claims raised by petitioner’s counsel on direct review.
11

A petitioner who is denied access to his legal files while in administrative

12

segregation or during a prison transfer may be entitled to equitable tolling so long

13

as he is diligently pursuing his claims. See Espinoza-Matthews v. California. 432

14 F.3d 1021, 1027-28 (9th Cir. 2005) (petitioner denied access to legal materials
15

while in administrative segregation entitled to equitable tolling); Lott v. Mueller.

16 304 F.3d 918, 924-25 (9th Cir. 2002) (petitioner denied access to legal files during
17 transfer per prison policy entitled petitioner to equitable tolling). Here, petitioner
18 has not alleged if or when he may have been without his legal materials, or
19 demonstrated that he was reasonably diligent in pursuing his claims during the
20 running of the statute of limitations. See Rhodes v. Kramer. 451 Fed. Appx. 697,
21 698 (9th Cir. 2011) (limited library access and lockdowns did not merit equitable
22 tolling); Chaffer v. Prosper. 592 F.3d 1046, 1049 (9th Cir. 2010) (per curiam) (pro
23

se status, deficient prison library, and reliance on helpers who were transferred or

24 too busy to assist him did not warrant equitable tolling; inmate failed to
25

demonstrate diligence in accessing prison law library when inmate failed to make

26 any specific allegation as to what he did to pursue his claims and complain about
27 situation) (citation omitted); Ramirez v. Yates. 571 F.3d 993, 998 (9th Cir. 2009)
28

(ordinary prison limitations on a petitioner’s access to the law library do not
3

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 4 of 6 Page ID #:479

1

constitute extraordinary circumstances); Miller v. Marr. 141 F.3d 976, 978 (10th

2

Cir.) (denying equitable tolling when petitioner “provided no specificity regarding

3

the alleged lack of access and the steps he took to diligently pursue his federal

4

claims.”!, cert, denied. 525 U.S. 891 (1998); Giraldes v. Ramirez-Palmer. 1998

5

WL 775085, *2 (N.D. Cal. Nov. 3, 1998) (lockdown expected, albeit

6 unpredictable, part of prison life and not “extraordinary circumstance” that would
7 justify equitable tolling where petitioner made no showing that it actually impeded

8 his efforts to prepare petition, and had been able to file three state petitions during
9 period he allegedly was hindered in his effort to file the federal petition).
10

Petitioner’s lay status/ignorance of the law is not itself a basis for equitable

11

tolling. See Waldron-Ramsey v. Pacholke. 556 F.3d 1008, 1013 n.4 (9th Cir.)

12

(“[A] pro se petitioner’s confusion or ignorance of the law is not, itself, a

13

circumstance warranting equitable tolling.”), cert, denied. 558 U.S. 897 (2009);

14 Rasberrv v. Garcia. 448 F.3d 1150, 1154 (9th Cir. 2006) (pro se petitioner’s lack of
15

legal sophistication not by itself extraordinary circumstance warranting equitable

16 tolling).

17
18
19
20
21
22
23
24
25
26
27
28

Petitioner also cites to the alleged lack of notes from his trial attorney and
others as a basis for tolling. (Motion to Reconsider at 4, 10). While the denial of
access to legal materials may in some circumstances entitle a habeas petitioner to
equitable tolling (see Lott v, Mueller. 304 F.3d at 924), petitioner fails to
demonstrate that his asserted lack of access to notes from his trial attorney and
others caused him to file a late Petition or that it otherwise entitles him to equitable
tolling. Again, the Petition merely presents the claims petitioner’s counsel raised
on direct review, which petitioner could have raised and did raise without the notes
he alleges he is missing. See Waldron-Ramsev. 556 F.3d at 1014 (no equitable
tolling where petitioner did not have state court records; diligent petitioner could
have prepared basic form habeas petition and filed it to satisfy AEDPA deadline or
at least filed it sooner); Ford v. Pliler. 590 F.3d 782, 790 (9th Cir. 2009) (lack of

4

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 5 of 6 Page ID #:480

1

legal files does not entitle a petitioner to equitable tolling when the petitioner

2

knows the factual bases of his claims), cert, denied. 562 U.S. 843 (2010).

3

Finally, petitioner also cites to a purported 14-day delay from the California

4

Court of Appeal’s order on direct appeal directing the Superior Court to prepare a

5 new sentencing order as a basis for tolling. (Motion to Reconsider at 3
6 (referencing Lodged Doc. 1 at 32-33)). The Court of Appeal’s order and any
7 related 14-day delay predate the time petitioner’s conviction became final and
8 accordingly do not entitle petitioner to any tolling of the statute of limitations.
Petitioner Has Not Made a Credible Claim of Actual Innocence
B.
9
Petitioner makes various allegations which could be construed as arguments

10
11

that he is actually innocent of the crimes of which he was convicted. (Motion to

12 Reconsider at 5-11). Once again, the Court does not find that any of petitioner’s
13 bald, self-serving allegations credibly suggest that he is actually innocent of his
14 crimes, and do not provide the kind of new reliable evidence not introduced at trial
15

that is required for this Court to hear his untimely claims. Schlup v. Delo. 513

16 U.S. 298, 329 (1995).
Petitioner Is Not Entitled to a Stay of These Proceedings to
C.
17
Exhaust Any Unexhausted Claims

18

To the extent petitioner is again asking for a stay of these proceedings so

19
20

that he may exhaust new claims in state courts (see Motion for Reconsideration at

21

5-12 (including new claims/arguments not raised in the Petition)), petitioner has

22

not shown good cause for failing to exhaust his unexhausted claims, or that his

23

claims are not plainly meritless, or that such claims are not themselves time-barred

24

so as to warrant a stay. See Superseding Report and Recommendation at 11-13

25

(discussing petitioner’s burden in showing entitlement to a stay to exhaust

26 unexhausted claims).
27

28

III.

ORDERS
IT IS HEREBY ORDERED that petitioner’s requests for discovery and
5

Case 5:19-cv-00850-JAK-JC Document 25 Filed 02/13/20 Page 6 of 6 PagelD#:481

1

related tolling, a stay, and the appointment of counsel are denied, the Motion to

2

Dismiss the Petition is granted, the Motion to Reconsider is denied, and the

3

Petition and this action are dismissed with prejudice because petitioner’s claims are

4

time-barred.

5

IT IS FURTHER ORDERED that the Clerk serve copies of this Order and

6 the Judgment herein on petitioner and counsel for respondents.
7

LET JUDGMENT BE ENTERED ACCORDINGLY.

8

9

DATED: February 13, 2020

10
11
12
13
14

John A. Kronstadt
United States District Judge

15
16
17
18
19
20

21
22
23
24

25
26
27
28

6

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 1 of 13 PagelD#:46C

1
2
3
4

5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

11

ELLERY DENNIS THOMAS,
Petitioner,

12
13
14

v.
MADDEN, Warden, et al.,

16
18
19
20

21
22
23
24

25
26

SUPERSEDING REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

Respondents.

15
17

Case No. 5:19-cv-00850-JAK-JC

This Superseding Report and Recommendation is submitted to the
Honorable John A. Kronstadt, United States District Judge, pursuant to the
provisions of 28 U.S.C. § 636 and General Order 05-07 of the United States
District Court for the Central District of California.
I.

SUMMARY
On April 5, 2019, petitioner signed and is deemed to have constructively

filed a Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254 by a Person in
State Custody (“Petition”) with exhibits (“Petition Ex.”), which was formally filed
on May 1, 2019.1 Petitioner challenges a 2015 conviction in San Bernardino
County Superior Court Case No. FVI1401296 for, inter alia, two counts of

27
28

1

See Houston v. Lack. 487 U.S. 266, 276 (1988).

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 2 of 13 Page ID #:463

1

forcible rape, four counts of forcible oral copulation, and two counts of sexual

2

penetration with a foreign object, alleging that: (1) his conviction based on the

3

victim’s “generic testimony” about when alleged events occurred violated his due

4

process rights (Ground One); (2) there was insufficient evidence to show that he

5

accomplished force through duress for the forcible rape and forcible oral

6 copulation counts (Ground Two); (3) the trial court violated petitioner’s
7

constitutional rights by admitting testimony regarding petitioner’s alleged

8

molestation of a child in 2003 (Ground Three); and (4) the trial court erred in

9 failing to instruct the jury on the lesser included offense of sexual battery for the
10 forcible sexual penetration counts (Ground Four).
11

On June 25, 2019, respondents filed and served petitioner by mail with a

12 Motion to Dismiss the Petition (“Motion to Dismiss”), arguing that petitioner’s
13

claims are barred by the statute of limitations. Respondents concurrently lodged

14 multiple supporting documents (“Lodged Doc.”). Petitioner’s response to the
15

Motion to Dismiss was originally due on July 29, 2019. As petitioner did not file

16 any response to the Motion to Dismiss by such deadline, but did file a Notice of
17

Change of Address on July 22, 2019, this Court, on August 21, 2019, ordered

18 respondents to re-serve petitioner with the Motion to Dismiss at his new address
19 and extended petitioner’s deadline to file a response to within thirty days of
20

re-service of the Motion to Dismiss. As respondents re-served petitioner by mail

21

with the Motion to Dismiss on August 22, 2019, petitioner’s extended deadline to

22

file an opposition to the Motion to Dismiss was September 26, 2019.

23

On September 3, 2019, petitioner formally filed a Motion for Extension of

24

Time (“Petitioner’s Motion”) which appears to have been signed by petitioner on

25 August 28, 2019, reflects that petitioner actually received the originally served
26 Motion to Dismiss on July 25, 2019, and sought a sixty-day extension of time to
27

file a response thereto. As it did not appear that petitioner had received the

28

Court’s August 22, 2019 order before filing Petitioner’s Motion, the Court
2

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 3 of 13 Page ID #:462

1

construed Petitioner’s Motion to seek a sixty-day extension of the original July 29,

2

2019 deadline, i.e., until September 27, 2019, to file a response to the Motion to

3

Dismiss. As the Court had just extended petitioner’s deadline to September 26,

4

2019, it denied Petitioner’s Motion without prejudice to any future extension

5 request which established good cause for a further extension of time.
Petitioner’s September 26, 2019 deadline to file a response to the Motion to
6
7

Dismiss expired without petitioner filing such response or any further request to

8

extend the deadline to do so. On October 28, 2019, the Court filed a Report and

9 Recommendation recommending that the Petition be dismissed with prejudice
10 because petitioner’s claims are time-barred. Later on October 28, 2019, the Clerk
11

received and formally filed petitioner’s “Response to Dismissal” (“Response”)

12 with exhibits (“Response Ex.”), which Response petitioner appears to have signed
13 on October 21, 2019, and which, given the timing of its signature and submission,
14 the Court has construed to be and has considered as, a late-filed opposition to the
15

Motion to Dismiss. Respondents did not file a reply.
Based upon the record and the applicable law and for the reasons explained

16

17 below, this Court again recommends that the Motion to Dismiss be granted and
18 that the Petition and this action be dismissed with prejudice because petitioner’s
19 claims are time-barred.
PROCEDURAL HISTORY
20 II.
21

A.

State Conviction, Sentence, and Direct Appeal

22

On October 2, 2015, a San Bernardino County Superior Court jury found

23

petitioner guilty of two counts of forcible rape, four counts of forcible oral

24

copulation, two counts of forcible sexual penetration, one count of incest, and one

25

count of misdemeanor sexual battery. (Petition at 1-2; Lodged Doc. 1 at 2). The

26 trial court sentenced petitioner to a total of 64 years and eight months in state
27

prison. (Petition at 1; Lodged Doc. 1 at 2).

28

III
3

"ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 4 of 13 Page ID #:46c

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

On August 4, 2017, in Case No. E064888, the California Court of Appeal,
Fourth Appellate District, Division Two (“Court of Appeal”), affirmed the
judgment in a reasoned decision rejecting claims corresponding to the grounds
raised herein. (Lodged Doc. 1). Petitioner raised the same claims in a petition for
review to the California Supreme Court in Case No. S244197. (Lodged Doc. 2).
On November 1,2017, the California Supreme Court denied review without
comment. (Lodged Doc. 3).
B.

State Habeas Petitions

On October 8, 2018, petitioner constructively filed a state habeas petition
with the San Bernardino County Superior Court in Case No. WHC1800381,
raising a prosecutorial misconduct claim. (Lodged Doc. 4). On November 2,
2018, the Superior Court denied the petition, on the merits and also on procedural
grounds, citing, inter alia, In re Dixon, 41 Cal. 2d 756, 759 (1953) (courts will not
entertain habeas corpus claims that could have been but were not raised on
appeal). (Lodged Doc. 5).
A search of the state court appellate dockets available online at https://
appellatecases.courtinfo.ca.gov does not reflect that petitioner has filed any habeas
petitions with the California Court of Appeal or the California Supreme Court.
C.

The Instant Petition

As noted above, petitioner constructively filed the instant Petition on
April 5, 2019.
III.

DISCUSSION
A.

Accrual of the Statute of Limitations

24

Pursuant to 28 U.S.C. § 2244(d), a one-year statute of limitations applies to

25

a petition for a writ of habeas corpus by a person in state custody. The limitation

26 period runs from the latest of: (1) the date on which the judgment became final by
27

the conclusion of direct review or the expiration of the time for seeking such

28

review (28 U.S.C. § 2244(d)(1)(A)); (2) the date on which the impediment to
4

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 5 of 13 PagelD#:464

1

filing an application created by State action in violation of the Constitution or laws

2

of the United States is removed, if the applicant was prevented from filing by such

3

State action (28 U.S.C. § 2244(d)(1)(B)); (3) the date on which the constitutional

4

right asserted was initially recognized by the Supreme Court, if the right has been

5 newly recognized by the Supreme Court and made retroactively applicable to
6 cases on collateral review (28 U.S.C. § 2244(d)(1)(C)); or (4) the date on which
7

the factual predicate of the claim or claims presented could have been discovered

8 through the exercise of due diligence (28 U.S.C. § 2244(d)(1)(D)).
Petitioner’s conviction became final on January 30, 2018 - ninety days after
9
10 the California Supreme Court denied review on direct appeal (on November 1,
11

2017) - when the time to file a petition for a writ of certiorari with the United

12

States Supreme Court expired. See Jimenez v. Quarterman, 555 U.S. 113, 119

13

(2009) (“direct review cannot conclude for purposes of § 2244(d)(1)(A) until the

14 availability of direct appeal to the state courts, and to this Court, has been
15

exhausted”) (internal citations omitted); Zepeda v. Walker, 581 F.3d 1013, 1016

16

(9th Cir. 2009) (period of “direct review” after which state conviction becomes

17 final for purposes of section 2244(d)(1)(A) includes the 90-day period during
18 which the state prisoner can seek a writ of certiorari from the United States
19

Supreme Court) (citation omitted); see also Porter v. Ollison, 620 F.3d 952, 959

20

(9th Cir. 2010) (same). Accordingly, the statute of limitations commenced to run

21

on January 31, 2018, and absent tolling, expired on January 30, 2019, unless

22

subsections B, C or D of 28 U.S.C. § 2244(d)(1) apply in the present case. See

23

28 U.S.C. § 2244(d)(1)(A).

24

25

In his Response, petitioner essentially argues that he should be entitled to a
later accmal date for the statute of limitations under 28 U.S.C. section

26 2244(d)(1)(B) because of an alleged state-created impediment, asserting that he
27

has not received: (1) copies of his own notes from trial that assertedly should have

28 been a part of the public defender’s file; (2) transcripts of a plea bargain hearing;
5

3ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 6 of 13 Page ID #:46E

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

(3) a copy of an alleged warrant for a cell phone that the victim was using; and
(4) a copy of an allegedly forged letter entered into evidence at trial. (Response at
4-6; Response Ex. C). Petitioner asks that the Court compel the San Bernardino
County Public Defender’s Office to relinquish petitioner’s notes, order respondent
to produce the other items assertedly withheld, and toll the statute of limitations
until such time that petitioner receives these items. (Response at 4-6).
Petitioner has not shown any illegal state action prevented petitioner from
filing the Petition raising his current claims sooner. Subsection (d)(1)(B) applies
to impediments created by “state action” which violate the Constitution or laws of
the United States. See Shannon v. Newland, 410 F.3d 1083, 1087-88 & n.4 (9th
Cir. 2005), cert, denied, 546 U.S. 1171 (2006). The purported actions or
omissions of petitioner’s counsel in failing to provide petitioner’s trial notes or
other items in his file are not a state-created impediment. See, e.g., Stewart v.
McComber, 2014 WL 2510927, at *2 (C.D. Cal. Apr. 25, 2014) (state-appointed
defense counsel’s actions are not “state action” that would trigger
§ 2244(d)(1)(B)), report and recommendation adopted, 2014 WL 2511216 (C.D.
Cal. June 4, 2014), cert, appeal denied. No. 14-56053 (9th Cir. Feb. 6,2015);
Olivera v. Grounds, 2013 WL 5675368, at *5 (C.D. Cal. Oct. 17, 2013) (same);
Lopez on Habeas Corpus, 2010 WL 2991689, at *4 (E.D. Cal. July 29, 2010)
(same); see generally Georgia v. McCollum, 505 U.S. 42, 53-54 (1992) (public
defender is not a state actor when representing a criminal defendant). Petitioner’s
appellate counsel was able to raise on direct appeal all of the claims asserted by
petitioner in the instant Petition.2 There is no indication that any state action

Petitioner accordingly has no need for and fails to establish good cause to grant his

26 requests for discovery and related tolling. See Rich v. Calderon, 187 F.3d 1064, 1068 (9th Cir.
27

28

1999) (discovery in habeas cases is not a matter of right, but rather is available only in the
discretion of the Court and for good cause shown), cert, denied. 528 U.S. 1092 (2000); Rule 6(a)
of the Rules Governing Section 2254 Cases in the United States District Courts (judge may
authorize discovery for good cause).

6

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 7 of 13 Page ID #:46e

1

prevented petitioner from raising his current claims with this Court once counsel

2

had exhausted them. Petitioner is not entitled to a later accrual date under

3

subsection (d)(1)(B).

4

Subsection C of 28 U.S.C. § 2244(d)(1) also has no application in the

5 present case. Petitioner’s claims are not predicated on a constitutional right
6 “newly recognized by the Supreme Court and made retroactively applicable to
7

8

cases on collateral review.”
Subsection D of 28 U.S.C. § 2244(d)(1) also has no application in the

9 present case, since petitioner raised the claims he raises herein with the state
10 courts on direct appeal and all such claims are predicated upon events which
11
12
13

occurred at trial.
Accordingly, absent tolling, petitioner had until January 30, 2019, to file a
federal habeas petition.
Statutory Tolling

14

B.

15

Title 28 U.S.C. § 2244(d)(2) provides that the “time during which a properly

16 filed application for State post-conviction or other collateral review with respect to
17 the pertinent judgment or claim is pending shall not be counted toward” the one18 year statute of limitations period. Petitioner “bears the burden of proving that the
19 statute of limitations was tolled.” Banjo v. Ayers, 614 F.3d 964, 967 (9th Cir.
20

2010), cert, denied, 564 U.S. 1019 (2011). The statute of limitations is not tolled

21

from the time a final decision is issued on direct state appeal and the time the first

22

state collateral challenge is filed because there is no case pending during that

23

interval. Porter v. Ollison, 620 F.3d at 958 (citations omitted).

24

The statute is tolled where a petitioner is properly pursuing post-conviction

25 relief. See Carey v. Saffold, 536 U.S. 214, 219-20 (2002) (application “pending”
26 as long as ordinary state collateral review process in continuance - i.e., until
27

completion of that process; application remains “pending” until it has achieved

28 final resolution through state’s post-conviction procedures); Harris v. Carter, 515
7

3ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 8 of 13 PagelD#:467

1

F.3d 1051, 1053 n.3 (9th Cir.) (statute of limitations tolled for all of time during

2

which state prisoner attempting, through proper use of state court procedures, to

3

exhaust state court remedies with regard to particular post-conviction application)

4

(citation omitted), cert, denied, 555 U.S. 967 (2008). In this case, statutory tolling

5

does not render the Petition timely filed.

6

As noted above, the statute of limitations commenced to run on January 31,

7

2018. Petitioner constructively filed his only state habeas petition on October 8,

8

2018, which was denied 26 days later on November 2, 2018. (Lodged Docs. 4-5).

9 Petitioner is not entitled to statutory tolling for the 250-day period between
10 January 31, 2018 (the date the statute of limitations commenced to run) and
11

October 8, 2018 (the date he constructively filed his state habeas petition), as no

12 case was pending during such time frame. See Porter v. Ollison, 620 F.3d at 958.
13

Assuming that petitioner is entitled to statutory tolling for the 26 days during

14 which his state habeas petition was pending with the San Bernardino County
15

Superior Court, the statute of limitations expired on February 25, 2019 - 39 days

16 before petitioner constructively filed the instant Petition.
17

C.

Equitable Tolling

18

The statute of limitations period may be subject to equitable tolling if

19 petitioner can demonstrate both that: (1) he has been pursuing his rights
20

diligently; and (2) some extraordinary circumstance stood in his way. Holland v.

21

Florida, 560 U.S. 631, 649 (2010). It is a petitioner’s burden to demonstrate that

22

he is entitled to equitable tolling. Miranda v. Castro, 292 F.3d 1063, 1065 (9th

23

Cir.), cert, denied, 537 U.S. 1003 (2002).

24
25

“[T]he threshold necessary to trigger equitable tolling is very high, lest the
exceptions swallow the rule.” Mendoza v. Carey, 449 F.3d 1065, 1068 (9th Cir.

26 2006) (quoting Miranda v. Castro, 292 F.3d at 1066). Petitioner must prove that
27

the alleged extraordinary circumstance was a proximate cause of his untimeliness

28

and that the extraordinary circumstance made it impossible to file a petition on
8

:ase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 9 of 13 Page ID #:46£

1

time. Ramirez v. Yates, 571 F.3d 993, 997 (9th Cir. 2009); Roy v. Lampert, 465

2

F.3d 964, 973 (9th Cir. 2006) (citing Stillman v. Lamarque, 319 F.3d 1199, 1203

3

(9th Cir. 2003)), cert, denied, 549 U.S. 1317 (2007).
Here, petitioner has not alleged that he is entitled to equitable tolling. If

4
5

petitioner were to argue that he is entitled to equitable tolling because he was

6 without copies of the briefing filed in his direct appeal until some time after May
7 24, 2018 (see Response Ex. D, letter request to appellate counsel dated May 24,
8 2018, stating that petitioner did not have a full copy of his petition for review or
9 any of appellate counsel’s briefs), there is no basis on the current record to
10 conclude that petitioner is entitled to any equitable tolling. The proof of service
11

attached to the Petition for Review indicates that appellate counsel mailed a copy

12 to petitioner in care of Candace C. Shield at the time it was filed. (Lodged Doc. 2
13 at 46).3 Petitioner arguably had access to the Petition for Review on which the
14 claims in the current Petition are based at the time the Petition for Review was
15

filed. Petitioner knew as early as March 15, 2018, that he had exhausted his

16 appeals process and was proceeding with seeking habeas relief with “a time
17 restraint.” See Response Ex. D (letter dated March 15, 2018, to petitioner’s trial
18 counsel acknowledging same). Petitioner has not suggested what, if any, steps he
19 may have taken beyond the May 24, 2018 letter to obtain copies of his claims
20

raised on direct appeal to suggest that he was pursuing his rights diligently for

21

equitable tolling to apply during any period in which petitioner may have been

22

waiting on his appellate file. Based on the current record, petitioner is not entitled

23

to equitable tolling.

24

III

25

26
27

28

3The record does not reflect who Candace C. Shield is. Respondents have not provided
the briefing petitioner’s appellate counsel filed with the California Court of Appeal, so the Court
cannot discern whether counsel served petitioner with copies of those pleadings when they were
filed.

9

(Itase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 10 of 13 Page ID #:469

1

D.

Actual Innocence

2

Petitioner does not argue specifically that the Court should hear his claims

3

because he is actually innocent of the crimes for which he was convicted, but he

4

does suggest that the charges arose from acts occurring during a consensual sexual

5

relationship with his daughter/the alleged victim. (Response at 1 -2). In rare and

6 extraordinary cases, a plea of actual innocence, if proved, can serve as a gateway
7

through which a petitioner may pass to overcome the statute of limitations

8

otherwise applicable to federal habeas petitions. McQuiggin v. Perkins. 569 U.S.

9

383, 386 (2013): see also Lee v. Lampert 653 F.3d 929, 934-37 (9th Cir. 2011)

10 (en banc). “[T]enable actual-innocence gateway pleas are rare.” Perkins, 569 U.S.
11

at 386. “[A] petitioner does not meet the threshold requirement unless he

12 persuades the district court that, in light of the new evidence, no juror, acting
13

reasonably, would have voted to find him [or her] guilty beyond a reasonable

14 doubt.” Id (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).
15

In order to make a credible claim of actual innocence, a petitioner must

16 “support his allegations of constitutional error with new reliable evidence 17 whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or
18

critical physical evidence - that was not presented at trial.” Schlup, 513 U.S. at

19

324; see also Griffin v. Johnson, 350 F.3d 956, 963 (9th Cir. 2003) (holding that

20

“habeas petitioners may pass Schlup’s test by offering ‘newly presented’ evidence

21

of actual innocence”), cert, denied, 541 U.S. 998 (2004); Shumway v. Payne, 223

22

F.3d 982, 990 (9th Cir. 2000) (“[A] claim of actual innocence must be based on

23

reliable evidence not presented at trial.”).

24

25

None of petitioner’s bald, self-serving allegations credibly suggest that he is
actually innocent of his crimes, or meet the requisite showing under Schlup by

26 providing new reliable evidence of petitioner’s innocence. Accordingly,
27

petitioner’s suggestion of “actual innocence” does not provide a gateway for

28 consideration of his otherwise time-barred claims.
10

dtase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 11 of 13 PagelD#:47p

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

28

E.

Petitioner’s Request to Stay and Abey These Proceedings and for
the Appointment of Counsel Should Be Denied

Petitioner’s Response asks that the Court stay these proceedings so that
petitioner can “add amendments” for unspecified/unexhausted claims of
ineffective assistance of trial and appellate counsel and prosecutorial
vindictiveness and misconduct. (Response at 6). Petitioner also has requested that
the Court appoint him counsel to assist him in adding the proposed amendments.
(Response at 6).
“Only in limited circumstances,” does a District Court have discretion to
stay and hold in abeyance a habeas corpus petition pending exhaustion of state
remedies. Rhines v. Weber, 544 U.S. 269, 277-78 (2005).4 A petitioner seeking a
Rhines stay must demonstrate: (1) good cause for petitioner’s failure to exhaust
his claims first in state court; (2) the unexhausted claims are not plainly meritless;
and (3) he has not engaged in abusive litigation tactics or intentional delay. Id.;
Dixon v. Baker, 847 F.3d 714, 720, 722 (9th Cir. 2017) (citations omitted).
Rhines does not define what constitutes good cause for failure to exhaust.
The Ninth Circuit has found that good cause does not require a showing of
“extraordinary circumstances.” Jackson v. Roe, 425 F.3d at 661-62; but see
Wooten v. Kirkland, 540 F.3d 1019, 1024 (9th Cir.) (noting that although a
showing of “extraordinary circumstances” is not required, a court must interpret
Rhines’s good cause requirement “in light of the Supreme Court’s instruction in
Rhines that the district court should only stay mixed petitions in ‘limited
circumstances’”), cert, denied, 556 U.S. 1285 (2009). “[G]ood cause turns on
4Although the Court addresses Rhines herein, such decision - unlike Kelly v. Small, 315
F.3d 1063 (9th Cir.), cert, denied. 538 U.S. 1042 (2003), overruled on other grounds. Robbins v.
Carey, 481 F.3d 1143 (9th Cir. 2007), does not apply to stays of fully exhausted petitions such as
the Petition herein. See Jackson v. Roe, 425 F.3d 654, 661 (9th Cir. 2005); cf Mena v. Long,
813 F.3d 907, 912 (9th Cir. 2016) (finding that Rhines applies to wholly unexhausted petitions,
as well as “mixed” petitions containing both exhausted and unexhausted claims).

11

(Ease 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 12 of 13 Page ID #:47

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

whether the petitioner can set forth a reasonable excuse, supported by sufficient
evidence” to justify a failure to exhaust. Blake v. Baker, 745 F.3d 977, 982 (9th
Cir. 2014) (citation omitted), cert, denied, 135 S. Ct. 128 (2014); see also Dixon
v. Baker, 847 F.3d at 721-22 (fact that petitioner was without counsel in state
post-conviction proceedings can constitute good cause under Rhines).
Petitioner’s Response does not specify what his unexhausted claims are with
any detail or offer a clear explanation for petitioner’s failure to exhaust his
unexhausted claims. (Response at 6). Petitioner has not shown good cause for
failing to exhaust his unexhausted claims, or that these claims are not plainly
meritless to merit a Rhines stay. Nor has he demonstrated cause for a stay under
Kelly v. Small, which allows for stays of fully exhausted federal petitions without
a showing of good cause. See supra note 4. Under Kelly, a petitioner may seek a
stay of his fully exhausted petition with the understanding that he will be allowed
to amend the operative petition to add any newly exhausted claims only if such
claims are timely or “relate back” to the original exhausted claims. See Mayle v.
Felix, 545 U.S. 644, 664 (2005). Here, the Court has found that petitioner’s
original claims are untimely. Petitioner has not made any showing that his new,
unspecified claims would be timely if raised independently and such claims would
be untimely even if they relate back to his original claims.
Petitioner’s request for “legal aid” to assist in “adding the amendments”
(unexhausted claims) to the Petition (Response at 6), should be denied. There is
no constitutional right to counsel on habeas corpus. Ryan v. Gonzales, 568 U.S.
57, 66-68 (2013) (discussing Ninth Circuit’s acknowledgment of same in Rohan v.
Woodford, 334 F.3d 803, 810 (9th Cir.), cert, denied, 540 U.S. 1069 (2003)). The
right to counsel extends “to the first appeal of right and no further.” Pennsylvania
v. Finley, 481 U.S. 551, 555 (1987). Where, as here, no evidentiary hearing is
required, the decision to appoint counsel in a non-death penalty habeas case is
within the discretion of the court. Knaubert v. Goldsmith, 791 F.2d 722, 728 (9th

12

l

(Itase 5:19-cv-00850-JAK-JC Document 24 Filed 12/04/19 Page 13 of 13 PagelD#:472

1

Cir.), cert, denied, 479 U.S. 867 (1986). “In deciding whether to appoint counsel

2

in a habeas proceeding, the district court must evaluate the likelihood of success

3

on the merits as well as the ability of the petitioner to articulate his claims pro se

4

in light of the complexity of the legal issues involved.” Weygandt v. Look, 718

5 F.2d 952, 954 (9th Cir. 1983). Here, it appears that petitioner’s effective ability to
6 articulate his claims pro se is adequate. Further, at this stage of the proceedings
7

petitioner has not demonstrated a likelihood of success on the merits to warrant

8

appointment of counsel. On the current record, the Court finds no cause to

9 appoint counsel in this case.
10 IV.

RECOMMENDATION

11

IT IS THEREFORE RECOMMENDED that the District Judge issue an

12 Order: (1) approving and accepting this Superseding Report and
13

Recommendation; (2) denying petitioner’s requests for discovery and related

14

tolling, a stay and the appointment of counsel; (3) granting the Motion to Dismiss

15

and dismissing the Petition and this action with prejudice because petitioner’s

16

claims are time-barred; and (4) directing that Judgment be entered accordingly.

17 DATED: December 4, 2019
18
19
20

21

/s/
Honorable Jacqueline Chooliian
UNITED STATES MAGISTRATE JUDGE

22
23
24

25
26
27
28

13

